MANDATE

3/04/2021,3049141, Pagel of 9

19-3425-cv
Dekom v. Fannie Mae

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION “SUMMARY ORDER”). A PARTY CITING A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of die United States Court of Appeals for the Second Circuit, held
at the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York,
on the 11th day of February, two thousand twenty-one.
PRESENT:

JOHN M. WALKER, JR.,
REENARAGGI,
WILLIAM J. NARDINI,
Circuit Judges.

Martin Dekom, and on behalf of the Little
People,
Plaintiff-Appellant,
19-3425-cv

v.
Fannie Mae, Bank of America N.A., (USA),
Nahonstar Mortgage LLC, Elisabetta
COSCHIGNANO, WILLIAM RlCCIO, BERKMAN

Henoch Law Firm, Bruce R. Cozzens, Thomas
A. Adams, George Pech, Ellen Brandt, Gross
Polowy Law Firm, Sandelands Eyet Law Firm,
Erik Vallely, Matthew Burrows, Brian
Goldberg, Laura Strauss, Geoffrey Jacobson,
Keiran Dowling, Laurence Chirch, Aprilanne
Agostjno, Darrell Joseph, Randall Eng, Alan
Sheinkman, Nassau County Clerk, Hans
Augustin, Oscar Prieto, 8 Motions Clerks, 2nd
Department Appellate Judges, Pawns 1-100,
Goldman Sachs, as owner of “Pool 1”,
Defendants-Appellees.

MANDATE ISSUED ON 03/04/2021

Case 19-3425, Document 262, 03/04/2021, 3049141, Page2 of9

FOR PLAINTIFF-APPELLANT:

Martin Dekom, pro se, Navarre, FL.

FOR DEFENDANTS-APPELLEES:

Richard P. Haber, Brian P. Scibetta, McCalla
Raymer Leibert Pierce, LLC, New York, NY
(for Fannie Mae and Nationstar);
Connie Flores Jones, Winston & Strawn LLP,
Houston, TX (for Bank of America);
Barbara D. Underwood, Solicitor General,
Judith N. Vale, Senior Assistant Solicitor
General, David Lawrence III, Assistant
Solicitor General, for Letitia James, Attorney
General ofthe State ofNew York, New York,
NY (for Coschignano, Riccio, Cozzens,
Adams, Pech, Brandt, Agostino, Joseph, Eng,
Sheinkman, 8 Motion Clerks, and 2nd
Department Appellate Judges);
William C. Sandelands, Sandelands Law
LLC, Chester, NJ (for Sandelands Eyet LLC,
Jacobson, Dowling, and Chirch);
Daniel James Evers, Donna A. Napolitano,
Nicholas S. Tuffarelli, Berkman, Henoch,
Peterson, Peddy & Fenchel, P.C., Garden
City, NY (for Berkman Henoch P.C., Vallely,
and Burrows);
Stephen J. Vargas, Gross Polowy, LLC,
Westbury, NY (for Gross Polowy LLC,
Goldberg, Strauss, and Augustin);
Robert F. Vanderwaag, Nassau County
Attorney’s Office, Mineola, NY (for Nassau
County Clerk);
Lisa C. Cohen, Jenny C. Gu, Schindler,
Cohen & Hochman, LLP, New York, NY
(for Goldman Sachs).

2

Case 19-3425, Document 262, 03/04/2021,3049141, Page3 of 9

Appeal from a judgment of the United States District Court for the Eastern District of New
York (Mauskopf,

Lindsay, M.J.).

UPON DUE CONSIDERATION, TT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is AFFIRMED.
Appellant Martin Dekora, proceeding pro se, sued numerous financial institutions, law
firms, attorneys, and state court judges and staff for violations of the Truth-in-Lending Act
(“TILA”), Real Estate Settlement Procedures Act (“RESPA”), Fair Debt Collection Practices Act
(“FDCPA”), Racketeer Influenced and Corrupt Organizations Act (“RICO”), District of Columbia
Consumer Protection Procedures Act (“CPPA”), and state law, alleging that the defendants
fraudulently obtained a default judgment against him in a 2013 foreclosure action in state court
and brought a second improper “foreclosure” action in 2016. The district court dismissed the
complaint, reasoning that the Rooker-Feldman doctrine barred Dekom’s claims and that the state
court defendants were immune from suit. This Court “review[s] the grant of a motion to dismiss
de novo, accepting as true all factual claims in the complaint and drawing all reasonable inferences
in the plaintiff’s favor.” Finkv. Time Warner Cable, 714 F.3d 739,740-41 (2d Cir. 2013). “We
may affirm ... on any basis for which there is a record sufficient to permit conclusions of law,
including grounds upon which the district court did not rely.” Leon v. Murphy, 988 F.2d 303,308
(2d Cir. 1993). In applying these principles here, we assume the reader’s familiarity with the
record.
I.

Judicial Immunity

“(Jjudges generally have absolute immunity from suits for money damages for their
judicial actions,” which “even allegations of bad faith or malice cannot overcome.” Bliven v.
Hunt, 579 F.3d 204, 209 (2d Cir. 2009).

Judicial immunity will not apply in only two

Case 19-3425, Document 262, 03/04/2021,3049141, Page4 of 9

circumstances: (1) where the challenged actions were not taken in the judge’s “judicial capacity,”
and (2) where the judge acted “in the complete absence of ail jurisdiction.” Mireles v. Waco, 502
U.S. 9,11-12 (1991) (internal citations omitted).
Defendants Pech, Cozzens, Adams, Eng, Sheinkman, and unnamed others are judges in the
Nassau Supreme Court and the Appellate Division, Second Department, the courts in which
Dekom’s foreclosure and appeal were filed.

Although Dekom asserts that some of these

defendants acted without jurisdiction, those allegations are conclusory and lack a basis in pleaded
fact or law. See Kirch v. Liberty Media Corp449 F.3d 388, 398 (2d Cir. 2006) (“[Cjonclusory
allegations or legal conclusions masquerading as factual conclusions will not suffice to [defeat] a
motion to dismiss.” (second alteration in original)).
Insofar as Dekom asserts that he sues some of these judges and their staffs for non-judicial,
administrative tasks, his argument fails because the actions all pertained to the management of his
foreclosure case and appeal, thus making them judicial in nature. See Bliven, 579 F.3d at 210
(observing that “acts arising out of, or related to, individual cases before the judge are considered
judicial in nature”); Rodriguez v. Weprin, 116 F.3d 62, 66-67 (2d Cir. 1997) (recognizing court’s
inherent power to control its docket as part of its judicial function, for which actions, even when
administrative, judges and their supporting staff are afforded absolute immunity).
Dekom also could not seek injunctive relief against the state court defendants for alleged
First Amendment and equal protection violations, which we construe as a 42 U.S.C. § 1983 claim.
Section 1983 states that “in any action brought against a judicial officer for an act or omission
taken in such officer’s judicial capacity, injunctive relief shall not be granted unless a declaratory
decree was violated or declaratory relief was unavailable.” 42 U.S.C. § 1983. The state court

4

Case 19-3425, Document 262, 03/04/2021, 3049141, Page5of9

defendants—judges or subordinates acting at judges’ direction—were “judicial officers,” see
Montero v. Travis, 171 F.3d 757, 760-61 (2d Cir. 1999), and Dekom did not allege that any of
these defendants violated a declaratory decree or that declaratory relief was unavailable.
Accordingly, the district court correctly dismissed the claims against the state court defendants on
grounds ofjudicial immunity.
II.

Res Judicata

Under the Full Faith and Credit Act, 28 U.S.C. § 1738, we must apply New York res
judicata law to New York state court judgments. See Hoblock v. Albany Cty. Bd. ofElections,
422 F.3d 77, 93 (2d Cir. 2005). That law precludes a party from litigating a claim “where a
judgment on the merits exists from a prior action between the same parties [or their privies]
involving the same subject matter,” In re Estate ofHunter, 4 N.Y.3d 260,269 (2005), even when
the claim “is based upon different legal theories or seeks different or additional relief,” Davidson
v. Capuano, 792 F.2d 275, 278 (2d Cir. 1986).
Res judicata here applies to all Dekom’s claims against Fannie Mae, Bank of America
(“BOA”), and Nationstar Mortgage LLC (except his RESPA claim against Nationstar). The
foreclosure default judgment is a final judgment on the merits. See EDP Med. Computer Sys.,
Inc. v. United States, 480 F.3d 621, 626 (2d Cir. 2007) (“Res judicata does not require the
precluded claim to actually have been litigated.... That is why... default judgments can support
res judicata as surely as judgments on the merits.”); Henry Modell & Co. v. Minister, Elders &
Deacons ofReformed Protestant Dutch Church of City ofNew York, 68 N.Y.2d 456,461 (1986)
(noting that “default judgment awarding possession to the landlord has been held to preclude
litigation of subsidiary issues necessary to establish the tenant’s subsequent claim for separate

5

Case 19-3425, Document 262, 03/04/2021,3049141, Page6 of 9

equitable relief’). Dekom there had a full and fair opportunity to properly litigate his claims.
Dekom was properly served by BOA and had an opportunity to respond to the summons, but he
did not do so. In the ensuing inquest on damages, Dekom nevertheless was able to cross-examine
Nationstar’s witnesses and present evidence. See N.Y. C.P.L.R. § 3215(a)-(b), (f). Moreover,
in his filed motions for orders to show cause, Dekom had additional opportunities to challenge the
default judgment:
Further, both the foreclosure action and the instant suit involve causes of action based on
the same set of facts, see Davidson, 792 F.2d at 278 (holding Article 78 proceeding had same cause
of action as federal civil rights action because both involved allegations relating to plaintiffs
prison misconduct proceeding). Even if presenting a “different shading” of those facts, Smith v.
Russell Sage Coll, 54 N.Y.2d 185, 192-93 (1985) (observing that same factual grouping can
include “variations” or “different shadings of die facts”), Dekom’s federal complaint alleges that
the 2013 foreclosure action was fraudulently brought and prosecuted. This claim rests on the
same facts that Fannie Mae, BOA, and Nationstar were obliged to show to secure foreclosure, i.e.,
that Fannie Mae owned and Nationstar and BOA serviced the mortgage on which Dekom
defaulted, that they properly served Dekom, and that Dekom had been given proper notice of the
inquest. See N.Y. C.PX.R. § 3215(f) (requiring that plaintiff offer proof of entitlement to
judgment before a default judgment will be granted); Smith, 54 N.Y.2d at 192-93 (whether a
factual grouping “constitutes a ‘transaction’ or ‘series of transactions’ depends on how the facts
are related in time, space, origin, or motivation, whether they form a convenient trial unit, and
whether . . . their treatment as a unit conforms to the parties’ expectations or business
understanding or usage” (internal quotation marks omitted)).

6

Case 19-3425, Document 262, 03/04/2021, 3049141, Page7 of 9

Finally, Dekom, Fannie Mae, Nationstar and BOA are the same parties as in the foreclosure
action (or their privies). See Chase Manhattan Bank, N.A. v. Celotex Corp., 56F.3d343,346(2d
Cir. 1995) (a party in privity “includes those who are successors to a property interest, those who
control an action although not formal parties to it, those whose interests are represented by a party
to the action, and possibly coparties to a prior action” (internal quotation marks omitted)). Fannie
Mae owned Dekom’s mortgage, first hired BOA and then Nationstar as mortgage loan servicers,
and then had them pursue the foreclosure action on its behalf.
Therefore, Dekom’s claims against Fannie Mae, Nationstar, and BOA (with the exception
of the RESPA claim) are barred by res judicata.
III.

FDCPA, TILA, and RESPA Claims

Dekom’s claims against the remaining defendants under the FDCPA and RESPA were
correctly dismissed as barred by the one-year statutes of limitations. See 15 U.S.C. § 1692k(d)
(FDPCA); 15 U.S.C. § 1640(e) (TILA). Dekom filed his lawsuit on April 27, 2017, but his
FDCPA allegations relate to the 2013 foreclosure action, while his TILA claim alleges disclosure
failures in 2011 and 2014, all over three years prior to his filing this federal suit.
As for Dekom’s claim that defendants violated RESPA’s requirement that loan servicers
respond to written inquiries about mortgages and foreclosures, see 12 U.S.C. § 2605(eXl )(A); 12
C.F.R. 1024.35, it fails because he does not allege that any of die defendant law firms or their
attorneys were loan servicers of his mortgage. Nor does Dekom allege any facts plausibly
showing actual damages because he sought documentation already filed in die foreclosure action,
andcorrectionof“errors”thatwerethesubjectoflitigation. See 12U.S.C. §2605(f)(1)(limiting
recovery for failure to respond to “actual damages”).

7

Case 19-3425, Document 262, 03/04/2021, 3049141, Page8 of 9

IV.

RICO Claim

To state a civil RICO claim, a plaintiff must allege that “he was injured by defendants’ (1)
conduct (2) of an enterprise (3) through a pattern (4) of racketeering activity.” Cofacredit, S.A. v.
Windsor Plumbing Supply Co., 187 F.3d 229, 242 (2d Cir. 1999) (internal quotation marks
omitted). Even if Dekom could plead enterprise—which we need not decide—he fails to allege
a pattern of racketeering. See Schlaifer Nance & Co. v. Est. of Warhol, 119 F.3d 91, 97 (2d Cir.
1997) (requiring “at least two predicate acts” to show pattern); see also 18 U.S.C. § 1961(5).
Dekom alleges that defendants attempted to obtain an “illicit double recovery” by filing a second
“foreclosure” action (an action to extinguish a prior lien on Dekom’s property dating from 1985,
decades before Dekom purchased the property). But “allegations of frivolous, fraudulent, or
baseless litigation activities—without more—cannot constitute a RICO predicate act.” Kim v.
Kimm, 884 F.3d 98,104 (2d Cir. 2018). Accordingly, Dekom fails to state a RICO claim.
V.

Common-Law Fraud, Wrongful Foreclosure, and Malicious Prosecution

To plead fraud in New York, a plaintiff must allege “a material misrepresentation of a fact,
knowledge of its falsity, an intent to induce reliance, justifiable reliance by the plaintiff and
damages.” Eurycleia Partners, LP v. Seward & Kissel, LLP, 12 N.Y.3d 553, 559 (2009).
Dekom alleges that defendants misled him into believing that the foreclosure inquest process was
legitimate.

This does not plausibly plead fraud because, as already discussed, the inquest

procedure was appropriate under New York civil practice rules when a defendant defaults. For
the same reason, Dekom fails to state a claim for wrongful foreclosure.
Dekom also fails to state a malicious prosecution claim based on the 2016 extinguishment
action. A plaintiff claiming malicious prosecution must plausibly plead malice (i.e., “a purpose

8

Case 19-3425, Document 262, 03/04/2021,3049141, Fage9 of 9

other than the adjudication of a claim”), lack of probable cause to bring the prior proceeding, and
special injury. Engle v. CBS, Inc., 93 N.Y.2d 195, 201, 204 (1999). Dekom fails to allege any
facts showing either the lack of probable cause or ensuing special injury.
VI.

CPPA

Because Dekom did not allege that he purchased, leased, or received goods or services in
the District of Columbia, he fails to state a claim under D.C. Code § 28-3901(c).
We have considered all of Dekom’s remaining arguments and find them to be without
merit. Accordingly, we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

A True Copy
Catherine O’Hagan Wj

irk

United States Coui ff*8T Appeals,\Second Circuit
J second
8!

r

Case 19-3425, Document 268,04/21/2021, 3082343, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
21st day of April, two thousand twenty-one.
Before:

John M. Walker, Jr.,
Reena Raggi,
William J. Nardini,
Circuit Judges.

Martin Dekom, ami on behalf of the Little People,

STATEMENT OF COSTS

Plaintiff - Appellant,

Docket No. 19-3425

v.

Fannie Mae, Bank of America N.A., (USA),
Nationstar Mortgage LLC, Elisabetta Coschignano,
William Riccio, Berkman Henoch Law Firm, Bruce
R. Cozzens, Thomas A. Adams, George Pech, Ellen
Brandt, Gross Polowy Law Firm, Sandelands Eyet
Law Firm, Erik Vallely, Matthew Burrows, Brian
Goldberg, Laura Strauss, Geoffrey Jacobson, Keiran
Dowling, Laurence Chirch, Aprilanne Agostino,
Darrell Joseph, Randall Eng, Alan Sheinkman,
Nassau County Clerk, Hans Augustin, Oscar Prieto, 8
Motions Cleric, 2nd Department Appellate Judges,
Pawns 1-100, Goldman Sachs, as owner of "Pool l",
Defendants - Appellees.

IT IS HEREBY ORDERED that costs are taxed in the amount of $1,209.00 in favor of
Appellees Berkman Henoch Law Firm, Matthew Burrows, and Erik Vallely.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court

A True Copy
Catherine O'Hagan Wj
Appeals,vSecond Circuit
United States Couittftr*1T
Ml

f

J 4

CERTIFIED COPY ISSUED ON 04/21/2021

Case 2:17-cv-02712-RRM-ARL Document 249 Filed 09/26/19 Page 1 of 2 PagelD #: 7345

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
X
MARTIN DEKOM, et al.
Plaintiffs,
- against -

MEMORANDUM AND ORDER
17-CV-2712 (RRM) (ARL)

FANIE MAE et al.,
Defendants.
X
ROSLYNN R. MAUSKOPF, United States District Judge.
Plaintiff Martin Dekom seeks reconsideration of the March 28, 2019 Order Honorable
Joseph F. Bianco, adopting in its entirety the Report and Recommendation of Magistrate Judge
Arlene R. Lindsay, and dismissing this action. See Doc. No. 234. Plaintiffs request is denied.
Reconsideration is “an extraordinary remedy to be employed sparingly in the interests of
finality and conservation of scarce judicial resources.” Butto v. Collecto Inc., 845 F.Supp.2d
491,494 (E.D.N.Y. 2012) (quoting Trans-Pro Logistic Inc. v. Coby Electronics Corp., No. 05CV-1759 (CLP), 2010 WL 4065603, at *1 (E.D.N.Y. Oct. 15, 2010)) (internal quotation marks
omitted). A party requesting reconsideration must adduce controlling law or facts that were
overlooked by the Court that might materially have influenced its conclusion. See Shrader v.,
CSXTransp., Inc., 70 F.3d 255, 257 (2d Cir. 1995); Perez v. New York City Dep’t ofCorr., No.
10-CV-2697 (RRM) (RML), 2013 WL 500448, at *1 (E.D.N.Y. Jan. 17, 2013). Moreover, “[a]
motion for reconsideration may not... be used as a vehicle for relitigating issues already
decided by the Court.” Webbv. City ofNew York, No. 08-CV-5145 (CBA),2011 WL 5825690,
at *1 (E.D.N.Y. Nov. 17, 2011) (quoting Davidson v. Scully, 172 F.Supp.2d 458, 461 (S.D.N.Y.
2001)). Plaintiffs request does not demonstrate any clear error, highlight a change in controlling
law, or present new evidence. See Montblanc-Simplo GmbHv. Colibri Corp., 739 F.Supp.2d

Case 2:17-cv-02712-RRM-ARL Document 234 Filed 03/28/19 Page 1 of 7 PageiD #: 7286

FILED

IN CLERK'S OFFICE
U.S. DISTRICT COURT ED.N.Y.

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

★

MAR 28 2019

★

x
LONG ISLAND OFFICE

MARTIN DEKOM,
Plaintiff,
ORDER
I7-CV-2712 (JFB) (ARL)

-againstFANNIE MAE, etal.,
Defendants.

—X
JOSEPH F. BIANCO, District Judge:
On February 26,2019, Magistrate Judge Lindsay issued a Report and Recommendation
(the “R&R,” ECF No. 230) recommending that the Court grant defendants’ motions to dismiss
(ECF Nos. 175,180,181,182,184,198) and deny plaintiffs motions seeking a change of venue
(ECF No. 72), to expedite discovery (ECF No. 139), judgment on the pleadings (ECF No. 208),
and objecting to evidence submitted by defendants. (ECF No. 209.) The R&R instructed that
any objections to the R&R be submitted within fourteen (14) days of service of the R&R. (R&R
22.) On March 1,2019, plaintiff requested an extension of time to respond from March 13, 2019
to April 29, 2019. (ECF No. 231.) The Court granted this request in part, granting an extension
to respond to the motions addressed by the R&R to March 26, 2019 and to April 29, 2019 for
objections to the recommendation regarding the litigation injunction. (ECF No. 232.) On March
26,2019, plaintiff filed his objections to the R&R. For the reasons set forth below, having
conducted a de novo review, the Court adopts the thorough and well-reasoned R&R in its
entirety, granting defendant’s motion to dismiss and denying plaintiffs motions. Plaintiff has

!

Case 2:17-cv-02712-RRM-ARL Document 234 Filed 03/28/19 Page 3 of 7 PagelD #: 7288

portions of the report or specified proposed findings or recommendations to which objection is
made."); Fed. R. Civ. P. 72(b)(3) ("The district judge must determine de novo any part of the
magistrate judge's disposition that has been properly objected to. The district judge may accept,
reject, or modify the recommended disposition; receive further evidence; or return the matter to
the magistrate judge with instructions.").
Plaintiffs Objections
Plaintiff objected to the R&R on the basis that it is “replete with fatalities” and “creates a
fiction in which the servicing of a mortgage loan is unrelated to the assignment.” (Obj. at 2.)
Specifically, plaintiff argues that Bank of America “had no authority to pursue the foreclosure
action against [plaintiff] in 2014, nor did Nationstar have the right to continue it.” (Id.)
Additionally, plaintiff argues that the R&R inappropriately held that the foreclosure process was
not unlawful.1 because the record is lacking as to the actions of the referee appointed in
plaintiffs foreclosure. (Id.)

Finally, plaintiff argues that the R&R improperly found that the

Eleventh Amendment, the Rooker-Feldman doctrine, resjudicata, and collateral estoppel
mandate dismissal of all plaintiffs claims. (Id. at 5, 7.)
Analysis
Having conducted a review of the full record and applicable law, and having conducted a
de novo review of the entire R&R, the Court adopts the analysis and recommendations contained
in the R&R in their entirety.2

1 Specifically, plaintiff argues that the record did not demonstrate that: (1) the actions of the referee, appointed in
plaintiffs foreclosure, were lawful (Obj. at 2); and (2) that defendant Bank of America delivered plaintiff a required
pre-foreclosure notice. (Id. at 3.)
2 The Court notes that, although the R&R referred to the doctrines of res judicata and collateral estoppel as
jurisdictional, such issues are not jurisdictional, but rather are decided under a Rule 12(b)(6) standard. See
Thompson v. Cty. ofFranklin, 15 F.3d 245,253 (2d Cir. 1994). However, other than incorrectly labelling the
grounds as jurisdictional, the R&R correctly analyzed all the requirements of the doctrines of resjudicata and
collateral estoppel as applied to this case.
3

Case 2:17-cv-02712-RRM-ARL Document 234 Filed 03/28/19 Page 5 of 7 PagelD #: 7290

(E.D.N.Y. 2010) (quoting Hoblock v. Albany County Bd ofElections, 422 F.3d 77, 85 (2d
Cir.2005) (internal citations and quotations omitted). The Second Circuit has classified the first
and fourth requirements as “procedural” and the second and third requirements as
“substantive.” The Court finds that both procedural and substantive requirements of this doctrine
have been met. Foremost, the Court agrees with the R&R that plaintiff is seeking review of the
state court judgment of foreclosure and sale. Although plaintiff argues that preclusion under
Rooker-Feldman is inappropriate because the “matter is still on appeal”, the Court finds that
abstention is appropriate because “[rjegardless of the status of any state court appeals, [plaintiff]
is still seeking federal review of a state-court judgment.” Caldwell, 701 F. Supp. 2d at 348
(citing Field Auto City, Inc. v. Gen. Motors Corp., 476 F.Supp.2d 545, 553 (E.D. Va.), affd, 254
F. App’x 167 (4th Cir. 2007) (explaining that “[a] contrary rule would allow a state court litigant
to avoid Rooker-Feldman simply by filing the federal action while the state appeal is
underway”). This is what Rooker-Feldman prohibits. Finally, although plaintiff argues that his
alternative claims {e.g., FDCPA, fraud, RICO, and Section 1983) are independent and should
survive, the Court agrees with the R&R that such claims are “inextricably intertwined” and are
barred. See Andrews v. Citimortgage, Inc., No. 14-CV-1534 JS AKT, 2015 WL 1509511, at *5
(E.D.N.Y. Mar. 31, 2015) (‘“a federal plaintiff cannot escape the Rooker-Feldman bar simply
by relying on a legal theory not raised in state court.’”) (quoting Lajaunie v. Samuels & Son
Seafood Co., 2014 WL 7190922, at *4 (S.D.N.Y. Dec. 12, 2014)).
Additionally, in the alternative, the Court finds that the R&R utilized the proper legal
standard for res judicata and collateral estoppel, and correctly applied that standard, in finding
that the Court should dismiss the claims on those grounds. The underlying foreclosure and
extinguishment actions were previous adjudications on the merits and plaintiff had the

5

Case 2:17-cv-02712-RRM-ARL Document 234 Filed 03/28/19 Page 7 of 7 PagelD #: 7292

on the pleadings or partial summary judgment as against Nassau County Clerk Maureen
O’Connell (ECF No. 208); and objecting to evidence submitted by defendants. (ECF No. 209).
IT IS FURTHER ORDERED that plaintiff shall file any objections to the
recommendation regarding the litigation injunction by April 26, 2019.

soAmJd^redX
/$/ Joseph F. Bianco
JOSEPH F. BIANCO
UNITED STATES DISTRICT JUDGE
Dated:

March 28,2019
Central Islip, NY

7

Case 2:17-cv-02712-RRM-ARL Document 230 Filed 02/26/19 Page 1 of 23 PagelD #: 7231

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
•X
MARTIN DEKOM and on behalf ofthe Little People,
Plaintiff,
REPORT AND
RECOMMENDATION
CV 17-2712 (JFB)(ARL)

-against-

FANNIE MAE, BANK OF AMERICA NA (USA),
NATIONSTAR MORTGAGE LLC, NASSAU COUNTY
CLERK, ELISABETTA COSCHIGNANO, WILLIAM
RICCIO, BERKMAN HENOCH LAW FIRM, BRUCE R.
COZZENS, THOMAS A. ADAMS, GEORGE PECH,
ELLEN BRANDT, GROSS POLOWY LAW FIRM,
SANDELANDS EYET LAW FIRM, ERIK VALLELY,
MATTHEW BURROWS, BRIAN GOLDBERG,
HANS AUGUSTIN, LAURA STRAUSS, OSCAR PRIETO,
GEOFFREY JACOBSON, KEIRAN DOWLING,
LAURENCE CHIRCH, APRILANNE AGOSTINO,
DARRELL JOSEPH, RANDALL ENG, ALAN SHEINKMAN,
8 MOTIONS CLERKS, 2ND DEPARTMENT APPELLATE
JUDGES, PAWNS 1-100, and GOLDMAN SACHS AS
OWNER OF "POOL 1,"
Defendants.
X
LINDSAY, Magistrate Judge:
Before the Court, on referral from District Judge Bianco, are the following motions:
1.
The second motion of the pro se plaintiff, Martin Dekom (“Dekom”),
seeking a change of venue [ECF No. 72];
2.
Dekom’s motion to expedite discovery and for equal protection [ECF
No. 139];
3.
The motion of the defendants, Berkman, Henoch, Peterson, Peddy &
Fenchel, P.C. s/h/a Berkman Henoch Law Firm ("BHPPF"), Erick Vallely
s/h/a Erik Vallely ("Vallely"), and Matthew Burrows ("Burrows") (collectively
the "BHPPF defendants"), to dismiss the plaintiffs Third Amended Complaint
[ECF No. 175];
4.
The motion of the defendants, Gross Polowy, LLC s/h/a Gross Polowy
Law Firm (“Gross Polowy”), Brian D. Goldberg, Esq. (“Goldberg”), Laura M.
Strauss, Esq. (“Strauss”) and Hans H. Augustin, Esq. (“Augustin”)
(collectively the "Polowy defendants"), to dismiss the plaintiffs Third
Amended Complaint [ECF No. 180];

Case 2:17-cv-02712-RRM-ARL Document 230 Filed 02/26/19 Page 3 of 23 PagelD #: 7233

A.

The BANA Mortgage

This case stems from a foreclosure action commenced by BANA in 2013. In August
2007, Dekom, a formerly licensed mortgage loan originator, secured a mortgage loan from
Countrywide Bank, FSB (“CBFSB”) in the amount of $358,842.00. See Lipkin Deck Ex. A.
The loan was secured by a mortgage on his property located at 34 High Street, Manhasset, New
York in favor of Mortgage Electronic Registration System (“MERS”), as nominee and successor
of CBFSB. Id. Ex. B. Countrywide endorsed the “interest only adjustable rate note” executed
by Dekom to Countrywide Home Loans Inc. Id. Ex. A. The Mortgage was recorded with the
Nassau County Clerk’s Office on August 10, 2007 at Liber M32202, Pages 22-41. Id. Ex. B.
On or about December 28, 2011, MERS assigned the Mortgage to BANA (the “2011
Assignment”). Id. Ex. C. The 2011 Assignment was recorded with the Nassau County Clerk’s
Office on March 10, 2012 at Liber M 36981, Pages 937-939. Id.
In September 2013, BANA transferred servicing responsibilities to Nationstar. BANA’s
Mem. at 2. On June 17, 2014, BANA then assigned the Mortgage to Nationstar (the “2014
Assignment”). Id. Ex. D. The 2014 Assignment was recorded with the Nassau County Clerk’s
Office on July 10, 2014 at Liber M 39791, Pages 796-797. Id.
B.

The State Court Actions

According to Dekom, by 2011, “[h]e was mortgaged to the hilt, and as the financial crisis

motions because discovery has been stayed and, according to him, the documents referred to in the defendants’
motion papers have not been authenticated. ECF No. 209. The undersigned respectfully recommends that
Dekom’s motion dated November 8,2018, which addresses this issue, be denied. “[l]t is well-settled that, in
considering a motion to dismiss, the Court is entitled to take judicial notice of documents integral to or referred to in
the complaint, as well as documents filed in other courts and other public records.” Craig v. Saxon Mortg. Servs.,
Inc., No. 13-CV-4526 SJF GRB, 2015 WL 171234, at *1 (E.D.N.Y. Jan. 13, 2015) (quoting Reyes v. Fairfield
Props., 661 F. Supp. 2d 249, 255 n. 1 (E.D.N.Y. 2009). In addition, “‘[i]n resolving a motion to dismiss for lack of
subject matter jurisdiction under Rule 12(b)(1), a district court... may refer to evidence outside the pleadings.’” Id.
(quoting Makarova v. United States, 201 F.3d 110, 113 (2d Cir. 2000)).

3

Case 2:17-cv-02712-RRM-ARL Document 230 Filed 02/26/19 Page 5 of 23 PagelD #: 7235

Id. Upon receipt of the Notice of Issue, the action was scheduled for an inquest hearing. Id.
On October 15, 2014, an inquest was held before the late Honorable George Peck. See
Lipkin Decl. Ex. F. On October 30, 2014, Justice Peck issued a decision finding that BANA
was entitled to a Judgment of Foreclosure in the amount of $432,939.06 as of October 7, 2014,
with a contractual interest rate of 2.75% resulting in a per diem rate of $27.01 until entry of the
order. Id. He also appointed a referee. However, before the final judgment was entered,
Dekom filed a “Motion to Reargue, Renew, and Stay” seeking, in part, the dismissal of the
foreclosure action. See Chirch Decl. Ex. I. While that motion was pending, the Honorable
Thomas A. Adams, entered the Judgment of Foreclosure and Sale. See Lipkin Decl. Ex. F.
The Judgment of Foreclosure and Sale, which is dated December 2, 2014, provided for the
amendment of the caption to substitute Nationstar as the plaintiff in favor of BANA in
accordance with the 2014 Assignment. Id. On December 11,2014, the Judgment of
Foreclosure was entered in the Nassau County Clerk’s Office and was recorded on December 30,
2014 at Liber J 3837, Pages 233-245. Id.
After the Judgment of Foreclosure and Sale was entered, Dekom filed a second motion,
by order to show cause, seeking to vacate his default. See Chirch Decl. Ex. K. Justice Adams
issued two orders dated April 16, 2015 and May 14, 2015 in which he denied both Dekom’s
motion to reargue and motion to vacate the default. See Lipkin Decl. Ex. G. Following the
receipt of Justice Adam’s decisions, Dekom appealed the Judgment and both state court orders to
the Appellate Division, Second Department. Id. On May 16, 2018, the Appellate Division
affirmed the Judgment of Foreclosure and Sale as well as the two orders denying his motions.
Id. In its decision, the Appellate Division noted that Nationstar had established personal

5

Case 2:17-cv-02712-RRM-ARL Document 230 Filed 02/26/19 Page 7 of 23 PagelD #: 7237

extinguishment action denied Dekom’s motion for default judgment and cross-motion for default
judgment and dismissed his cross-claims and counterclaims. Id.
E.

Procedural History

Two years after the Judgment of Foreclosure and Sale was entered by the state court,
Dekom commenced the instant action against Fannie Mae, BANA, Nationstar and O’Connell.
ECF No. 1. Dekom initially filed this action in the United States District Court for the District
of Columbia. However, by order dated April 26, 2017, the D.C. District Court transferred the
matter to this Court finding that venue was improper. ECF No. 6. Four days later, Dekom filed
a motion with the Court that was construed as a motion to dismiss the case without prejudice.
ECF No. 12. As such, on May 16, 2017, the Clerk of the Court was directed to close the case.
On May 23, 2017, Dekom asked the Court to reopen the case and to reassign the matter
to Judge Spatt. ECF No. 14. Dekom advised that he had never intended to voluntarily dismiss
the case. Id. He also accused someone in the Court of “jimmying the ‘related case’ system.”
Id. Specifically, Dekom argued:
The other error was in the "related case” designation. The rule itself is an
exercise in legitimizing corruption and should be discarded. In fact, I
proposed exactly this last week to the Board of Judges of the United States
District Court for the Eastern District of New York.
Notwithstanding the rule's fundamental flaws, its application here shows that
my cases are being steered to Judge Seybert. In 2005,1 brought a housing
finance action which was assigned to Hon. Spatt. In 2012,1 brought two
actions, one on ballot access, the other against the Nassau Board of Elections.
The "related case" rule should have assigned these to Hon. Spatt, but they
ended up before Judge Seybert.
By rule, related cases are assigned to the lowest docket number. Of my three
prior cases, Judge Spatt was on the lowest number, from 2005. The newly
transferred Dekom v. Fannie Mae was not assigned to Judge Spatt, but to
Seybert.
Id. Upon receipt of his application, the case was reopened and, shortly thereafter, Judge Seybert

7

Case 2:17-cv-02712-RRM-ARL Document 230 Filed 02/26/19 Page 9 of 23 PagelD #: 7239

seeking leave to amend his complaint until the Court had an opportunity to address the motions
now pending before the Court.
In his third amended complaint, Dekom alleges that the defendants, including court
personnel from the Nassau County Supreme Court and the New York Appellate Division,
Second Department, engaged in an “illegal process,” a “racket,” harassment and coercion, a
“fraudulent court,” a “fake hearing,” “public corruption,” “legal weirdness,” “fraud,” and
“collusion,” which he says included the removal and alteration of public records, and
“influencing the selection ofjudges.” Third Am. Compl. fflj 29-35. Dekom brings this matter
on behalf of himself and “the poor of America in or facing judicial foreclosure, who are illequipped to fight the professional liars employed by Fannie Mae’s agents, who stand to be
victimized by them, and who have a God given right to have their day in court without being
shorn of all human dignity.” Third Am. Comp,

7. Although Dekom does not dispute that he

defaulted on his loan, Dekom describes the foreclosure process as a “perversion of the law” and
suggests that his Judgment of Foreclosure and Sale was “illegally obtained.” Id. fflj 26, 28.
Specifically, Dekom describes the foreclosure inquest as “a mix of public corruption and a cabal
of mortgage industry insiders to serve as their private court [that does] not exist in any law and is
illegal.” Id.

31. Dekom also claims that he uncovered collusion in the appellate division,

which, he says, led to his discovery of a ‘robosigning scam,’” as well as a scam allegedly
perpetrated by the Nassau County Clerk. Id. ^ 35, 40.
In sum, Dekom claims that the foreclosure process is fraught with illegality.
Accordingly, he has asserted the following claims:
1.

violation of the Real Estate Settlement Procedures Act (“RESPA”) and
the Truth in Lending Act (“TILA”) as against Fannie Mae, Nationstar,
and BANA (claim one);

9

Case 2:17-cv-02712-RRM-ARL Document 230 Filed 02/26/19 Page 11 of 23 PagelD #: 7241

that is claiming ownership of the mortgage at 34 High Street, Manhasset, NY.3
3. Dekom alleges that Sandelands Eyet was the law firm retained to prosecute
him. Geoffrey Jacobson, Kieran Dowling, and Laurence Chirch are attorneys
employed by Sandelands Eyet. Dekom contends that all the Sandelands Eyet
defendants are agents of Fannie Mae. The defendants have clarified that they
were retained by Nationstar to represent the company with respect to the two
appeals filed by Dekom in the state court.
4. Dekom alleges that Ellen Brandt is an employee of Nationstar, who
“fraudulently posed as a witness” at the October 30, 2014 inquest hearing in the
foreclosure action.
5. BHPPF is the law firm that was retained by BANA to commence the
foreclosure action. Erick Vallely and Matthew Burrows are attorneys
employed by BHPPF.
6. Gross Polowy is a law firm that was retained to represent Nationstar in the
foreclosure and extinguishment action. After the foreclosure proceeding was
commenced by BHPFF, the Gross Polowy, LLC was substituted as counsel.
Brian Goldberg and Laura Strauss are attorneys employed by Gross Polowy.
Hans Augustin is a former attorney. Oscar Prieto, who has not appeared in
this action, is referred to a subcontracted attorney with Gross Polowy.
7. Maureen O’Connell (O’Connell) was the Nassau County Clerk during the
relevant period. O’Connell has not appeared in this action.4
8. Justices Randall Eng and Alan Sheinkman are Appellate Division Justice.
Justices R. Bruce Cozzens, Thomas A. Adams and George Peck are Justices of
the Nassau County Supreme Court. Aprilanne Agostino is the Chief Clerk of
the Appellate Division. Darrell Joseph is the Deputy Clerk of the Appellate
Division. William Riccio and Elisabetta Coschignano are law secretaries at
the Nassau County Supreme Court. All the State Court defendants are alleged
to have been involved in the foreclosure action.

3 According to MTGLO, Dekom is operating under the misassumption that his loan was purchased by Goldman
Sachs in 2017, three years after the foreclosure action. Edward B. Chavez, who was the transaction manager for
MTGLQ during the relevant period, explained that Dekom’s loan was included initially in an offering made to
MTGLO in 2016, but the loan was kicked out of that offering before the sale. See Chavez Aff. 2, 5-8.
4 Dekom has filed a motion for a default judgment as against O’Connell. ECF No. 208. Notwithstanding the fact
that Dekom claims that O’Connell was served with the Third Amended Complaint on September 10, 2018, given the
Court’s findings with respect to subject matter jurisdiction, the undersigned recommends that the plaintiffs motion
be denied.
11

Case 2:17-cv-02712-RRM-ARL Document 230 Filed 02/26/19 Page 13 of 23 PagelD #: 7243

in Ashcroft v. Iqbal, 556 U.S. 662 (2009), in which the court set forth a two-pronged approach to
be utilized in analyzing a motion to dismiss. District courts are to first “identify [ ] pleadings
that, because they are no more than conclusions, are not entitled to the assumption of truth.” Id.
at 679. Though “legal conclusions can provide the framework of a complaint, they must be
supported by factual allegations.” Id. Second, if a complaint contains “well-pleaded factual
allegations, a court should assume their veracity and then determine whether they plausibly give
rise to an entitlement to relief.” Id. “A claim has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the reasonable inference that the defendant is liable
for the misconduct alleged. The plausibility standard is not akin to a ‘probability requirement,
but it asks for more than a sheer possibility that a [defendant has acted unlawfully.” Id. at 678
(citing Bell Atl. Corp. v. Twombly, 550 U.S. 544, 556-57 (2007) (internal citations omitted)).
Where, as here, the complaint was filed by a pro se litigant, the court must construe the
complaint liberally and interpret the complaint “to raise the strongest arguments they suggest.”
Triestman v. Fed. Bureau of Prisons, 470 F.3d 471, 474 (2d Cir. 2006). However, a pro se
complaint must state a plausible claim for relief, Walker v. Schult, 717 F.3d 119, 125 (2d Cir.
2013), and mere conclusions of law unsupported by factual averments need not be accepted, Klos
v. Bligh, No. 13-CV-5449, 2014 WL 3778993, at *5 (E.D.N.Y. July 31, 2014). Lastly, "'[i]t is
well-settled that, in considering a motion to dismiss, the Court is entitled to take judicial notice
of documents integral to or referred to in the complaint, as well as documents filed in other
courts and other public records’” Craig, 2015 WL 171234, at *1 n.3 (quoting Reyes v. Fairfield
Props., 661 F. Supp. 2d 249, 255 n.l (E.D.N.Y. 2009)).
II.

Eleventh Amendment
As an initial matter, the State Court defendants contend that the Eleventh Amendment

13

Case 2:17-cv-02712-RRM-ARL Document 230 Filed 02/26/19 Page 15 of 23 PagelD #: 7245

declaratory decree or the unavailability of declaratory relief. Accordingly, for all these reasons,
the undersigned finds that the claims against the State defendants in their official capacities are
barred by the Eleventh Amendment and recommends that those claims be dismissed for lack of
subject matter jurisdiction.
II.

Preclusion Principles
Each of the defendants argues that the plaintiffs claims are barred by the Rooker-

Feldman doctrine, collateral estoppel and res judicata, and therefore, the Court lacks subject
matter jurisdiction to hear this action. The undersigned agrees.
A.

Rooker-Feldman Doctrine

The Rooker-Feldman doctrine precludes a federal court from entertaining “cases brought
by state-court losers complaining of injuries caused by state court judgments rendered before the
district court proceedings commenced and inviting district court review and rejection of those
judgments.” Exxon Mobil Corp. v. Saudi Basic Indis. Corp., 544 U.S. 280,284 (2005). RookerFeldman also precludes federal district courts from exercising jurisdiction over claims that are
“inextricably intertwined” with state court determinations. Kropelnick v. Siegel, 290 F.3d 118,
128 (2d Cir. 2002) (quoting D.C. Court ofAppeals v. Feldman, 460 U.S. 462, 482-83 n.16, 103
S. Ct. 1303, 75 L. Ed 2d 206 (1983)). This doctrine recognizes that “federal district courts lack
jurisdiction over suits that are, in substance, appeals from state-court judgments.” Hoblock v.
Albany Cnty. Bd. of Elections, 422 F.3d 77, 84 (2d Cir. 2005). Indeed, “[underlying the
Rooker-Feldman doctrine is the principle, expressed by Congress in 28 U.S.C. § 1257, that
within the federal judicial system, only the Supreme Court may review state-court decisions.”
Green v. Mattingly, 585 F.3d 97, 101 (2d Cir. 2009).
The Second Circuit has identified four elements that must be met for the Rooker-Feldman
15

Case 2:17-cv-02712-RRM-ARL Document 230 Filed 02/26/19 Page 17 of 23 PagelD #: 7247

Rooker-Feldman analysis.”)). Generally, the courts in this district have followed the latter
approach. Id. (“This purpose would be undermined if the doctrine is inapplicable simply
because a litigant happens to be seeking state appellate review of a state-court judgment, while
also seeking federal district court review of that judgment”). This is so because “regardless of
the status of the appeal, the plaintiff is still seeking review of a state court judgment.”
Interestingly, in this matter, the initial complaint was filed before the appeal was finalized.
However, the operative pleading, that being, the third amended complaint, was filed on June 27,
2018, forty-two days after the Appellate Division affirmed the state court decision.
Nonetheless, even if the Court were to consider the date the initial complaint was filed, the
precedent in this district supports a finding that the procedural requirements have been met.
The substantive requirements of Rooker-Feldman have also been met. Indeed, there is
no doubt that Dekom is complaining of injuries caused by the state court judgment and is asking
this Court to review and reject those findings. Claims One through Four and Eight allege that
the Judgment of Foreclosure and Sale was “illegally obtained.” Claim Five challenges the order
that discontinued the extinguishment action.5 Dekom seeks actual damages in a variety of
amounts - $922,000 from Nationstar for the depravation of the value of his house; $359,703 from
Fannie Mae resulting from his deprivation of monthly income connected to the house; $287,666
from MTGLQ based on a percentage of the principal balance of the loan; punitive damages in
the amount of $9,000,000 resulting from the “shocking and heinous conduct of the defendants;”
and $200 billion dollars from Fannie Mae to compensate parties whose mortgages were collected

5 Dekom has made his true objective for bringing this action clear in his numerous motion papers filed with the
Court. For example, in January 2018, Dekom filed a 407-page document with the court containing papers from his
foreclosure appeal, along with a declaration in which he expressly challenges the foreclosure proceeding (e.g., “I
attempted to raise my motion to dismiss but was denied. The judge prevented me from asking pertinent
questions.”). See ECF Nos. 40,43.
17

Case 2:17-cv-02712-RRM-ARL Document 230 Filed 02/26/19 Page 19 of 23 PagelD #: 7249

*5 (S.D.N.Y. Dec. 17, 2001) (“Plaintiff cannot make an end run around the Rooker-Feldman
doctrine and into federal court... through the mere assertion of new and baseless claims to
supplement the old.”). Accordingly, the undersigned finds that Dekom’s claims are barred by
the Rooker-Feldman doctrine, and thus, respectfully reports and recommends that the
defendants’ motions to dismiss be granted.
B.

Res Judicata and Collateral Estoppel

The Court may also dismiss Dekom’s claims on the grounds of res judicata and collateral
estoppel. See Salahuddin v. Jones, 992 F.2d 447, 449 (2d Cir. 1993); Wilson v. Ltd. Brands,
No. 08 CV 3431 (LAP), 2009 WL 1069165, at *4 (S.D.N.Y. Apr. 17, 2009). Res judicata
provides that “a final judgment on the merits of an action precludes the parties or their privies
from relitigating issues that were or could have been raised in that action.” Burgos v. Hopkins, 14
F.3d 787, 789 (2d Cir. 1994); see also Done v. Wells Fargo Bank, N.A., No. 08-CV-3040 JFB
ETB, 2009 WL 2959619, at *3 (E.D.N.Y. Sept. 14, 2009) ("All litigants, including/?™ se
plaintiffs, are bound by the principles of res judicata"). As the Second Circuit explained in
Marcel Fashions Group, Inc. v. Lucky Brand Dungarees, Inc., 779 F.3d 102 (2d Cir. 2015):
The term res judicata, which means essentially that the matter in the
controversy has already been adjudicated, encompasses two significantly
different doctrines: claim preclusion and issue preclusion. Under claim
preclusion, a final judgment forecloses successive litigation of the very same
claim, whether or not relitigation of the claim raises the same issues as the
earlier suit. The doctrine precludes not only litigation of claims raised and
adjudicated in a prior litigation between the parties (and their privies), but also
of claims that might have been raised in the prior litigation but were not. The
doctrine of issue preclusion, in contrast, bars successive litigation of an issue
of fact or law actually litigated and resolved in a valid court determination
essential to the prior judgment, even if the issue recurs in the context of a
different claim.
Fequiere v. Tribeca Lending, No. 14-CV-812 (RRM)(LB), 2016 WL 1057000, at *5 (E.D.N.Y.

19

Case 2:17-cv-02712-RRM-ARL Document 230 Filed 02/26/19 Page 21 of 23 PagelD #: 7251

collateral estoppel. “[Collateral estoppel... means simply that when an issue of ultimate fact
has once been determined by a valid and final judgment, that issue cannot again be litigated
between the same parties in any future lawsuit.” Caldwell v. Gutman, Mintz, Baker &
Sonnenfeldt, P.C., 701 F. Supp. 2d 340, 349-50 (E.D.N.Y. 2010) (citing Leather v. Eyck, 180
F.3d 420, 424 (2d Cir. 1999) (quoting Schiro v. Farley, 510 U.S. 222, 232, 114 S. Ct. 783, 127 L.
Ed. 2d 47 (1994)). “Collateral estoppel, like the related doctrine of res judicata, has the dual
purpose of protecting litigants from the burden of relitigating an identical issue with the same
party or his privy and of promoting judicial economy by preventing needless litigation.” Id.
fciting Parklane Hosiery Co. v. Shore, 439 U.S. 322, 326, 99 S. Ct. 645, 58 L. Ed. 2d 552
(1979)). Specifically, "[u]nder New York law, collateral estoppel bars relitigation of an issue
when (1) the identical issue necessarily was decided in the prior action and is decisive of the
present action, and (2) the party to be precluded from relitigating the issue had a full and fair
opportunity to litigate the issue in the prior action." In re Hyman, 502 F.3d 61, 65 (2d Cir.
2007) (citations omitted). "The party seeking the benefit of collateral estoppel bears the burden
of proving the identity of the issues, while the party challenging its application bears the burden
of showing that he or she did not have a full and fair opportunity to adjudicate the claims
involving those issues. Khandhar v. Elfenbein, 943 F.2d 244, 247 (2d Cir. 1991) (citation
omitted). Here, many, if not all, of the issues raised by Dekom were decided by the state court
in the foreclosure and extinguishment actions, and Dekom had a full and fair opportunity to
litigate those issues. Accordingly, the undersigned finds that the claims raised by Dekom are
also bared by the doctrines of res judicata and collateral estoppel, and thus, recommends that the
Third Amended Complaint be dismissed in its entirety.

21

Case 2:17-cv-02712-RRM-ARL Document 230 Filed 02/26/19 Page 23 of 23 PagelD #: 7253

Recommendation to file written objections. Such objections shall be filed with the Clerk of the
Court via ECF, except in the case of a party proceeding pro se. Dekom must file his objections
in writing with the Clerk of the Court within the prescribed time period noted above. Any
requests for an extension of time for filing objections must be directed to Judge Bianco prior to
the expiration of the 14-day period for filing objections. Failure to file objections within this
period waives the right to appeal the District Court’s Order. See 28 U.S.C. § 636(b)(1); Fed R.
Civ. P 72; Wagner & Wagner, LLP v. Atkinson, Haskins, Nellis, Brittingham, Gladd & Carwile,
P.C., 596 F.3d 84, 92 (2d Cir. 2010); Beverly v. Walker, 118F.3d900, 902(2dCir. 1997);
Savoie v. Merchant’s Bank, 84 F.3d 52, 60 (2d Cir. 1996).
Dated: Central Islip, New York
February 26, 2019
/s/
ARLENE R. LINDSAY
United States Magistrate Judge

23

